Office of
INSPECTOR GENERAL

 Audit Report




 Review of the Commission Methods
 Used to Compose Publications



 Report No. IG-02-99




                                    December 1998
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                           WASHINGTON, D.C. 20436



  December 24, 1998

  I hereby submit a Review of the Commission Methods Used to Compose
  Publications, Report No. IG-02-9B. The Commission publishes a number of
  documents every year as part of its mission. These documents are mostly
  investigative, trade, or staff reports prepared by the program offices. The
  narrative portion of the reports are usually prepared using word-processing
  software, predominantly WordPerfect. Many reports have graphics and/ortables
  which are created using software such as WordPerfect, Harvard Graphics, Lotus,
  or Interleaf. Reports were put into final format by the program office or
  submitted to the Office of Publishing (PUB) for composition in preparation for
  printing.

  The Commission practice is to allow offices to decide whether and which
  documents will be sent to PUB for composition. Only a third of the recent
  Commission publications were composed by PUB. The Office oflnvestigations
  did not send any reports on title VII investigations, and section 337 reports do
  not require composition. The Office of Industries was the primary user, mostly
  for Industry and Trade Summaries and some section 332 reports. The Office of
  Economics also submitted International Economic Reviews and section 332
  reports. The reports not submitted to PUB were formatted by the program staff
  using word-processing software.

  PUB began using lnterleaf, a high powered composition software package, in
  1986 to convert draft documents into a final format. This composition software
  is noted for its speed, capabilities, and final look of the product. In recent years,
  program staff began asking PUB to compose documents using word-processing
  packages. As a result, PUB used word-processing software to compose about
  halfofthe documents published since January 1997.

  The objective of this review was to identify the most efficient and cost effective
  methodsto composeCommissiondocuments. We found that the Commissiondid
  not have a written policy on which documents are to be submitted to PUB for
  composition, or the method to be used to compose documents. Further, the
Commission did not have procedures for document preparation and submission.
Program staff used multiple software packages to prepare documents with
varying degrees of expertise. PUB spent a significant amount of resources
"undoing" the format drafted by program statf. Cleaning up documents is part of
composition, but minimizing this step makes the process more efficient. PUB
was often not involved in the report process until it received a report for
composition, and program staff generally had a poor understanding of the
composition process.

We believe the Commission practice to allow program offices to format
documents is a normal progression as employees gain expertise in using
computer software. Office directors should be able to decide to either have their
staff format the document, or have PUB provide composition services. In order
for the latter option to be efficient for both offices, agreement is needed on a
simplified format for draft documents and procedures on submitting documents.

Since the majority of documents were composed using word-processing
packages and this method was preferred by most offices, we bel ieve that the
Commission should adopt word-processing as the standard method for
composing documents.

Recommendations addressing these findings are numbered sequentially in this
report and can be found on pages 7, 10, and 12.

A draft report was sent to the Director of Administration on October 2, 1998, for
review and comment. He generally agreed with the need for a policy, guidelines,
a training program and coordination with the program offices. He strongly
disagreed with adopting word-processing as the standard method for
composition, and believed some reports should be submitted to PUB for
composition. His comments are addressed after each section and presented in
entirety as an appendix.


                                            4d~~
                                           ~~e     E. Altenhofen
                                              Inspector General




                                       2
                                                 TABLE OF CONTENTS
                                                                                                                                    Page

INTRODUCTION AND SCOPE                                                                                                                 1

BACKGROUND                                                                                                                             2

FINDINGS AND RECOMMENDATIONS                                                                                                           4

POLICY FOR PUBLICATION PROCESS                                           "                                       "              4
     Centralized Composition                                                                                                    4
     Interleaf                                                                                                                  5
     Word-processing                                                                                                            6
     Standard Method                                                                                                            6
     Internet Postings                                                                                                          7
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 7
     Agency Comments and OIG Response                                                                                           7

UNIFORM PROCEDURES                                                                                                                    8
     Recommendation                                                                                                                  10
     Agency Comments and OIG Response                                                                                                II

TRAINING. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. II
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 12
     Agency Comments and OIG Response                                                                                                  12

STYLE STANDARD                                                                                                                       12

Attachments: 1 - UPDATED STATISTICS ON COMMISSION PUBLICATIONS

                     2 - SECTION 332 REPORTS BY NUMBER OF PAGES

Appendix:            Memorandum from the Director of Publishing to the Inspector General,
                     dated December 3, 1998, (PUB-V-Ol)
                                INTRODLJCTION AND SCOPE

The objective of this review was to identify the most efficient and cost effective methods to
compose Commission reports and other documents published by the United States International
Trade Commission (Commission).

Our review was conducted from June 10 through July 17, 1998 in Washington, DC. We interviewed
representatives concerning the report production and composition process in the following offices:
Administration (AD); Publishing (PUB)'; External Relations (ER); Industries (I D); Economics (EC);
Information Services (OIS); Investigations (lNV); and Unfair Import Investigations (OUII). We
contacted representatives from the Government Printing Office (GPO) and the Congressional Joint
Committee on Printing to discuss printing regulations and reporting requirements.

In addition, we contacted the Federal Reserve Bank and the Office of the Comptroller of the
Currency (OCC), two agencies that also prepare official reports for Congress and the
Administration, to discuss their production and composition processes. Although these agencies do
not have the same statutory requirements as the Commission, both have review processes similar
to those of the Commission for document composition and production. Each agency had recently
updated its style manual.

We obtained examples of style manuals used by other agencies and industry. The Federal Reserve
Bank had an excellent style manual that was used by other governmental agencies as well. The
manuals obtained were:

       --   Writing in Style at the Federal Reserve, The Federal Reserve Bank (1998);
       --   The OCC's Concise Manual of Style, Controller of the Currency (1997);
       --   Chicago Manual of Style, fourteenth edition (Chicago, 1993); and
       --   APA Style Manual (Washington, DC).

We reviewed the OMS mission and functions statement regarding its responsibility in the publishing
and printing activities and PUB weekly workload statistics for the calendar years (CYs) 1996 and
1997, and CY 1998 through June 22, 1998. We reviewed various Commission documents on report
preparation, such as writing style guidelines and rules for tables and figures, and section 332
proposed work schedules for CY 1997 and YTD 1998.

We focused on Commission publications for CY 1997 and CY 1998 through June 5 (hereafter
referred to as YTD 1998). We categorized the 70 documents published in CY 1997 and 32 published
in YTD 1998 by type of investigation or study. We compared different types of Commission
documents for consistency between documents and conformity with Commission style guidelines.



            'During our field work, the Publ ishing Division in the Office of Management
    Services (OMS) was responsible for composition. In a reorganization effective October
    I, 1998, OMS was eliminated and the Office of Publishing established. For purposes of
    this report, the Office of Publishing and the Publishing Division are synonymous.
                                        BACKGROUND

The Commission publishes a number of documents every year as part of its mission. These
publ ications are mostly investigative, trade, or staff reports prepared by the program offices. The
narrative portion ofthe reports is usually prepared using word-processing software, predominantly
WordPerfect. Many reports have graphics and/or tables which are created using software such as
WordPerfect, Harvard Graphics, Lotus, or Interleaf. These reports are put into final format by the
program otlice or submitted to PUB for composition in preparation for printing.

The decision to submit documents to PUB for composition is made on an office or case-by-case
basis, although documents with statutory deadl ines are often not submitted. Program offices vary
significantly in submitting reports to PUB as follows:

               INV does not submit reports on title VII investigations.

               Tariff Affairs and Trade Agreements does not send the Harmonized Tariff System
               (HTS).

               EC submits most reports, including the International Economic Reviews (IERs) and
               section 332 studies for which it is the lead office.

               10 submits most Industry and Trade Summaries (Summaries), no Industry Trade and
               Technology Reviews (ITTRS), and some section 332 studies for which it is the lead
               office.

               The Office ofGeneral Counsel does not submit section 337 reports which consist of
               documents issued during the investigations, such as orders and Commission
               opinions, that do not require composition.

Composition in PUB consists of several steps performed by visual design specialists. First, PUB
"cleans" the document which involves stripping extraneous codes and inserting correct ones. If
applicable, the tile is converted from a double space, single column format into a single space, two
column format. Any tables, figures, text, and graphics are integrated into the document and the final
format, i.e., margins and spacing, is established. The program office reviews the document after
composition and whenever revisions are made by PUB.

PUB began using Interleaf, a high powered professional composition software package, in 1986 to
convert draft documents into a final format. This composition software is noted for its speed,
capabilities, and final look of the product. A major reason for adopting the composition software
was the capability to integrate tables and graphics into the text and speed needed to meet extremely
tight deadlines. The capability to format using dual columns and proportional spacing increased
readability and significantly reduced the size ofdocuments, which was an important factor at a time
when the Commission was printing large numbers ofdocuments for mailing. Documents submitted
to PUB were composed exclusively in Interleaf until recent years, when PUB also began to use
word-processing software.


                                                 2
The following charts show that in CY 1997 and YTD 1998, approximately 35 percent of
Commission publications were submitted to PUB for composition. Ofthose publications, 61 percent
were composed on Interleaf and 39 percent on word-processing software.


                                   COMMISSION PUBLICATIONS
                                   Program Office            PUB            Total

                  CY 1997               46                    24             70

                  YTD 1998              20                    12             32

                    Total               66                    36             102




                                                         CY 1997                      YTD 1998
                                               Program                      Program
                                                Office            PUB        Office             PUB
         Pu blication:                           WP          WP     INT       WP          WP      INT

         Title Vl1lnvestigations                    18        0         0      9            0         0
         Section 337 Investigations                 7         0         0         I         0         0
         Section 332 Studies                        13        4         6      6            0         2
         Industry and Trade Summaries               2         3         I      I            6         0
         IERs                                       0         I         7      0            0         2
         ITTRs                                      4         0         0      2            0         0
         Miscellaneous*                             2         0         2      I            0         2
                 Total Documents                   46         8     16        20            6         6

       *lnc1udes the 1998 HTS, a staff research study, the Commission Annual Reports, a
       publications list, an addendum on a section 1205 investigation, and an information booklet
       on section 337 investigations.

For information purposes, the above schedules were updated through December 17, 1998, and are
presented in Attachment I.




                                               3
                          FINDINGS AND RECOMMENDATIONS

POLICY FOR PUBLICATION PROCESS

The Commission does not have a written policy on which documents are to be submitted to PUB
for composition, or the method to be used to compose documents. The Commission practice is to
allow the program offices to decide whether and which documents will be sent to PUB for
composition, and to request the method to be used for composition. In CY 1997 and YTD 1998, only
35 percent of the publications were submitted to PUB for composition; program office staff
formatted the other documents using word-processing software. Documents submitted to PUB were
mostly composed on Interleaf (63 percent), and the rest were composed on word-processing
software (37 percent).

Centralized Composition

When the procurement oflnterleafwas approved in April 1986, the memorandum included a policy
statement predicated on the basis that composition would be centralized in PUB. Processing of
reports was to be phased in over a one-year period and the majority of reports would be composed
on Interleaf. At that time, INY was the largest user of PUB services, for title YII reports, and this
was expected to continue. PUB was to develop, produce, and maintain style and format policies.

A Commission policy directive was never prepared, and the anticipated use oflnterleafnever fully
developed. Further, composition was not centralized in PUB. With the installation of WANG
workstations around 1986, program staff began to format documents, and that trend has continued
until the present. PUB provides assistance to the staff who are formatting documents, which can
range from answering technical questions to preparing tables and graphics on Interleaf. As shown
on Attachment 2, PUB assisted on three of the reports formatted in YTD 1998.

In CY 1997 and YTD 1998, most Commission documents were formatted by the program offices
using word-processing software. Most statutory reports, including all title YII and most section 332
investigations, were formatted by program staff. Section 332 reports were submitted to PUB at the
discretion of the team leader; the decision had minimal relationship to the length and complexity
of the report. As shown in Attachment 2, the longest section 332 reports were formatted by the
program office, but the remaining reports had no clear pattern.

The documents composed by PUB were primarily research studies, 332 reports, IERs, and
Summaries. The latter two categories were self-initiated work and the reports were generally of
shorter length and without deadlines (lERs averaged 35 pages and Summaries averaged 54 pages).

We found no convincing basis for changing the decentralized practice that has developed. The
products have no discernible difference in visual quality of document content. For documents the
Commission wants to look more polished, changes were made in printing, not composition. For
example, the covers for the Commiss ion Annual Report and the Operation ofthe Trade Agreements
Program report covers were printed by GPO in order to have better color quality on glossy paper.
The pages of the Annual Report were printed by GPO for better clarity on pictures.


                                                 4
Some management officials stated that the program staff spend too much time on format instead of
focusing on content. These officials would like to make more use of PUB services, but are reluctant
because of bad experiences. The changes discussed in the uniform procedures section ofthis report
should improve the process so that officials will find it more efficient to submit documents to PUB
for composition and choose to do so.

PUB concurs that it does not have the resources to compose all of the agency's reports and studies.
However, PUB does want to produce "those reports that the agency anticipates will have significant
interest to our (Commission) customers as determined by the program offices". Presumably title VII
and section 337 reports would be excluded from this policy, even though some of these reports are
certainly of significant interest. Section 332 reports would be covered by this policy. Assuming that
non-recurring section 332 reports would have significant interest, a policy that these reports must
be composed by PUB would have a serious impact. For example, both NAFTA and APEC (see
publ ications numbered 3045 and 3 101 in Attachment 2 for full titles) would have been subject to
this requirement. Economics was the lead office on both of these reports and, despite a preference
for using PUB services, chose not to do so because oftime limits and difficulties in standardizing
the draft chapters.

Interleaf

Until 1996, documents submitted to PUB were composed on Interleaf. PUB considers Interleafto
be the best production composition package for the types of documents the Commission produces
because it gives a polished finish to documents, has more sophisticated graphic capabilities, and is
faster. However, some program offices strongly object to Interleaf.

The opposition to Interleaf is closely linked to proofreading, a major point of contention. PUB
requested proofreaders as part ofthe Interleafprocurement process, but none were provided then
or in response to subsequent requests. PUB did not have adequate staff and/or time to adequately
proofread for format errors before documents were returned to the program office, and sometimes
missed format errors, such as incorrect alignment oftext or tables. The project leaders objected that
the documents had to be proofread repeatedly in entirety, instead of just the changes, after every
revision. Thus began the "breakdown" in trust cited in PUB's response to the draft audit report.

The cause ofthe errors is also contentious. The program offices attributed the errors to Interleaf, and
PUB agreed that some errors were generated during the composition process due to software
problems with InterIeaf. PUB said errors were a result of insertions and changes to the documents
after composition was begun, to the extent that PUB staff were inputting hand-written changes at
the last minute. PUB also had to reenter data sometimes that was not submitted in a usable
electronic format which resulted in errors.

PUB said the Interleaf software problems have been mostly resolved, and the remaining problems
are inherent in any composition process. Text changes made during composition are prone to errors,
and PUB staff cannot proofread for content. Time constraints prevent using contractors for
proofreading services.



                                                  5
Word-processing

The current alternative to Interleaf is word-processing software, primarily WordPerfect.
Commission employees use word-process ing software to draft documents, and to format documents
that are not submitted to PUB. In recent years, project leaders began requesting that PUB compose
documents using word-processing software. PUB developed expertise in a variety of software
packages in order to be able to compose documents in word-processing, but the process was not
efficient and PUB requested guidance from the Chairman.

In response, a pilot project was started in FY 1996 to compose documents using word-processing
software. For this project, 10 was to prepare documents in a standard near-final format using word-
processing software, and submit the documents with a sufficient time-frame for PUB to compose
the documents for printing. To facilitate the pilot project, PUB agreed to provide the program office
support staff and analysts composition training; create document templates for program staff use;
provide on-demand, on-going technical support; and apply high-end desktop publishing skills at the
end of the report preparation process for quality control.

Although several individual reports were successful, the overall pilot project was not. 10 did not
prepare documents in near-final format, and did not submit the reports within the agreed upon time-
frame. PUB attributed the failure to the voluntary nature ofthe project, and 10 to circumstances that
unavoidably delayed the submission of reports.

Standard Method

PUB currently has to maintain both word-processing and professional-qual ity composition expertise.
Adopting a standard method for composing documents in-house would be more efficient. The
majority of documents are composed using word-processing software and this method is preferred
by most program offices. PUB will need to have expertise in word-processing regardless of the
method used for composition. Accordingly, we believe that the Commission should adopt word-
processing as the standard method for composing documents.

The benefits of Interleaf are not significant enough to mandate use. The only discernible visual
difference was the two-column format generated on Interleafwhich is considered easier to read. The
tables and graphics prepared in word-processing and Interleafappear comparable, although Interleaf
has some advanced graphics capabilities such as the scatter plots developed for Investigation No.
332-384. Interleaf is faster, which would be a factor in the longer documents, but the difference
would be a matter of hours on most documents.

The disadvantages of word-processing software are not significant. Columns cannot be used in
WordPerfect because the footnotes do not work, although the single column format is sometimes
compensated for by widening the margins. Some technical problems, such as placement of page
numbers, have to be resolved, but this was also true of Interleaf which originally had difficulties
with footnotes. For the occasional document requiring sophisticated graphics not currently available
in word-processing, the Commission would need to use a contractor which could be time-
consummg.


                                                  6
The significant opposition expressed by INV and ID makes it unlikely that Interleaf would be
voluntarily accepted. The problems have not been resolved to an acceptable level. For example, a
report was submitted to PUB late in CY 1997 and composed on Interleaf. So many format errors
occurred, that after several revisions the project leader decided to format the report using word-
processing (publication no. 3041).

Discontinuing Interleaf would not have any significant dollar costs or savings. The Commission
bought the Interleafsoftware years ago, and spends about $2, I00 annually for software maintenance.
Staff attend training every three to four years which costs approximately $3,000 per person. The
comparable costs for word-processing software are already being incurred. The significant savings
would be in staff resources by eliminating the need to maintain proficiency in two systems.

Internet Postings

The development of the Internet and the Commission's web site has also had an impact on PUB.
The Commission posts most public reports on its home page. A report has to be converted into a
Print Definition Format (PDF) file before it can be posted. Commission policy does not address
which office is supposed to do the conversion. ID usually converts reports composed by program
office staff, but some are referred to PUB for conversion. Some ofthese reports need reformatting
after the PDF conversion which can make the appearance inconsistent with the printed report.

Recom mendations

We recommend that the Director of Administration:

        I. Draft a Commission policy that:

               -- Addresses which documents, ifany, are to be submitted to PUB for composition,
               and the method to be used to compose such documents;

               -- Adopts word-processing as the standard method for composing Commission
               documents; and

               -- Links responsibility for posting reports on the Commission's web site with the
               report preparation.

       2. Phase-out in-house use of the Interleaf system.

Agency Comments and OIG Response

The Director ofAdministration stated that combining the statistics for reports other than 332 studies
and documents that do not go through the composition process gives a diminished view of the
amount of composition work PUB is actually performing.




                                                  7
       The scope of the audit as set forth in the notification memorandum was all Commission
       documents. Separating "reports other than 332 studies and other documents that do not go
       through the composition process" would eliminate entire categories of reports, such as title
       VII and section 337, that do not ever use PUB for composition. Other categories, primarily
       related to research studies, would be included whether or not the reports were submitted to
       PUB. This approach would be an inconsistent treatment of documents formatted by the
       program offices. Contrary to the statement that our statistics give a diminished view of the
       amount of work PUB is actually performing, a total universe is necessary to give a true
       picture of how documents are produced throughout the Commission.

The Director of Administration stated that historically, the lack of proofreaders is where the
breakdown in "trust" began and should be emphasized more in this report.

       We acknowledged that proofreading is a major point of contention in the draft report and
       have added details on the history in the final report. However, the lack ofproofreaders is not
       the current problem. Indeed, PUB said it did not use a contract awarded in FY 1998 for
       editing and proofreading services because of time constraints.

       The breakdown in trust is on both sides. PUB does not trust the program offices to submit
       documents in a timely manner and near-final format, which means about two weeks in
       advance of printing with Commission comments already incorporated. The program offices
       do not trust PUB to return a document without format errors in a timely manner, and
       increasingly choose to retain control of the document through printing.

       Realistic expectations need to be developed. Documents are not ready for composition two
       weeks in advance, and changes based on Commissioner comments are often made until the
       last minute possible. The publications process has to be able to accommodate this scenario
       without introducing format errors.


UNIFORM PROCEDURES

The Commission does not have procedures for document preparation and submission, and office
guidelines were not followed. Program staff used multiple software packages to prepare documents
with varying degrees ofexpertise. PUB spent a significant amount ofresources "undoing" the format
drafted by program staff. A more efficient process would be for program staffto prepare documents
in a simple format, and PUB to put the document in final format during the composition process.

The proliferation ofthe personal computer and simplification ofsoftware packages have contributed
to a change in how documents are prepared. Professional staff with a varying degree of expertise
and personal software preferences were preparing draft reports. Sections of the report were often
drafted by different analysts, who were sometimes in different offices with different style
preferences. While automation has many benefits, it also created the following problems:




                                                 8
•      A wide range of software packages was being used to compose documents. The standard
       adopted by the Information Resources Management Steering Committee (lRMSC) was
       WordPerfect 6.1 as set forth in the Standardsfor Producing fTC Tables and ITC Directive
       3204.1: Rulesfor Tables and Figures, December 30, 1992. Analysts used WordPerfect 5.0
       to 8.0, the latest available version, to compose documents.

•      A variety of print drivers were being used throughout the Commission. This resulted in
       compatibility problems when combining various sections ofa report composed by different
       analysts/program offices into one document.

•      Multiple data base, spreadsheet, and graphics software packages were used, e.g. Lotus,
       Excel, Power Point, Access, and Harvard Graphics. Figures were presented in different
       styles. The packages were not all compatible with each other, or easily converted for
       composition. In some cases, PUB had to re-enter or manipulate the document file to make
       it compatible with the composition software.

•      Tables were presented in different fonts and type-size, e.g. Times New Roman or Courier
       and 12 versus 10 point. Within the same document, and sometimes even within the same
       table, formatting for titles was not consistent. Similarly, underlining in the body ofthe tables
       was not cons istent.

•      Tables were sometimes linked to a document rather than inserted. PUB did not have access
       to the Iinked hard drive and had to re-enter the table if changes need to be made.

•      PUB developed standard templates for documents and tables, but these were seldom used.
       The Office of Economics used the standard template for composing documents, but the
       Office of Industries did not. Likewise, the program offices developed tables independently
       rather than using the templates.

•      The program offices delivered electronic and/or hard copies of documents to PUB in various
       stages of preparation, including hand-written copies, indicative of the differing levels of
       expertise with word-processing and a general lack of knowledge on how to format
       documents.

PUB had to strip extraneous codes, reformat, and manipulate the documents before putting them in
final format. PUB estimated approximately 60 percent of its time was cleaning up the documents
compared to 40 percent on composition.

Composition would be greatly facilitated if document preparation was reasonably standardized.
Software packages for data bases and spreadsheets should be designated as has been done for word-
processing, and draft documents should be prepared using the designated packages. Program offices
could choose to format documents in a "vanilla" format. This means basic typing in a standard
program, using minimal features such as indent, tab, bold, and underline. An alternative would be
to use templates developed in coordination with PUB. Tables, figures, and footnotes would be



                                                  9
submitted with the report, preferably as separate files. If possible, the program offices would use
a print driver compatible with the one used by PUB.

This method has been used successfully by EC where a simple, standardized format was followed
for most documents. Tables and graphics were submitted separately and inserted by PUB. The final
look and style of the document was created by PUB during the composition process. This approach
worked to the satisfaction of both offices.

The format of the documents sent to the Commission for review could also be changed to increase
efficiency of the process. Documents were submitted in varied formats. For example:

       IND sent a fully formatted version of the report with tables and figures inserted for better
       readabi Iity and presentation.

       EC sent a simpler document in which formatting had not been completed and the tables and
       figures were attached but not yet inserted into the text.

The latter approach has the advantage that changes are easier to incorporate into the document. If
a standardized format is adopted, sending a simpler document for Commission review could be
considered acceptable.

One reason the pilot project (see page 7) was not successful was that documents were not prepared
properly in near-final format. The program offices will need to provide support to program staffwho
do not have a minimum level of computer expertise, and establish some method to monitor that
documents are properly prepared.

Another reason the pilot project was not successful was that documents were not submitted within
the agreed upon time-frame. The program offices complete action jackets at the on-set of an
investigation which includes a time-line that generally allows two to three weeks for publication
(composition and printing). In practice, the time provided was often much less and at times was just
a few days. Records were not available to determine exactly when documents were submitted to
PUB, but the officials interviewed generally agreed that documents were not submitted in
accordance with the scheduled submission dates. New procedures should establ ish a reasonable time
frame for submitting documents.

Recom mendation

We recommend that the Director ofAdministration, in coordination with the Director ofOperations :

       3. Establish guidelines for processing documents that address the use of standardized
       software as adopted by IRMSC, and form and format of documents, timing, and feedback.




                                                 10
Agency Comments and OIG Response

The Director ofAdministration stated we should put more emphasis into detailing how the Interleaf
process can be successful in other offices, if those offices follow the example of the Office of
Economics.

       EC has been successful in using PUB services for composition. We clarified the report
       section on uniform procedures to indicate that EC is already following many of our
       recommendations. EC has no preference for either word-processingor Interleaf; PUB elects
       to compose these documents using Interleaf. Nevertheless, EC did not submit a large,
       complex report to PU B for composition because the report could not be prepared a sufficient
       time in advance.

PUB believes that the Director of Operations should demonstrably endorse and oversee the
enforcement and implementation of any recommendations that affect his office,

       To date, the Commission has not had a publication policy with which the Office of
       Operations was required to comply. Once a policy is adopted, as stated on the previous page,
       the program offices will have to ensure documents are properly prepared.


TRAINING

Program staff generally had a poor understanding of the composition process. The program offices
and PUB had minimal interaction from the onset ofan investigation through submission ofthe draft
for composition. PUB received a copy of the action jacket which had the estimated dates for
submitting the report for composition. Revised dates were not provided. The reports were prepared
according to the program staff's capabilities and preferences, and submitted in any format.

In addition to standardizing procedures, we believe educating the program staff on the production
process would be beneficial. Staff would then understand how the way the document is drafted
impacts on the work necessary for composition. For example, program staff who do not know how
to properly use tabs or create tables, are unlikely to know that PUB has to undo this work and redo
it properly. Similarly, several versions of WordPerfect are available in addition to the agency
standard. Staff can use an older version they are comfortable with, or experiment with the latest
version, and not realize that the format is often affected when documents are converted.

Training on the format and/or templates established in the standardized procedures needs to be
reinforced with specific on-the-job requirements. PUB should meet with staff as soon as possible
to discuss the document format, ensure the staff are familiar with format and how to use various
tools, and to answer any questions. Additional meetings may be necessary when documents are
consolidated or nearing completion.




                                                II
The program offices also need feedback from PUB on case-specific problems or trends. Especially
until the process is well-known, frequent informal feedback is needed to refine the process. A formal
mechanism, such as the project assessment briefings for 332 investigations, could be established.

Even without the standardized procedures, PUB could meet with the staff to discuss job
requirements and submission of documents. This would at least improve awareness ofthe problems
and the quality of submissions.

Recom mendations

The Director of Administration should instruct PUB to:

   4. Develop a training program on document preparation and composition for program staff; and

   5. Be proactive in providing input to program staff during the development ofthe document and
   feedback on problems.

Agency Comments and OIG Response

The Director of Administration stated that a liaison, most likely from PUB is essential not only for
document transition purposes, but for agency-wide training and support purposes, as well.

    We agree that a PUB liaison could be used to provide training and assistance throughout the
    entire document process, which would include insuring that documents to be submitted to PUB
    for composition conform to general standards and guidelines. Expanding PUB's role to include
    documents that are not going to be submitted for composition could be a significant expansion
    of responsibilities depending on how broadly "standards and guidelines" were defined. For
    example, conformance with procedures on submitting documents for printing would be
    appropriate, but reviews for conformance with editorial issues would not be appropriate.


STYLE STANDARD

Commission guidelines on writing styles, rules for tables and figures and format guidelines for
document preparation are technically out-of-date or not followed. We identified a general lack of
consistency in style, both between documents as well as within documents.

We reviewed a cross-section of Commission documents to identify format differences. The
documents included the Annual Report and reports for title VII, section 332, and section 20 I
investigations. Examples of style inconsistencies were:

        •      The document table of contents varied as to format, font, chapter headings (Part I,
               Chapter I), table and figure designations (1,2,3/1-1, 11-1/ 1-1,2-1) and pagination
               (ii / I, 2, / I-I, 2-1 / I-I, II-I).



                                                 12
        •       The document outline was inconsistent in presentation, i.e. determination and views
                ofthe Commission at times is treated as a prologue to the document and other times
                as Chapter I.

        •      Documents composed using Interleafwere right and left justified; those using a
               word-processing package generally were left justified only.

The Commission style manual may not be used when composing a document because it is not "user
friendly" and was not readily available until recently. The manual did not contain an index or cross
references so particular areas of interest were difficult to locate. In addition, the manual did not have
clear examples specifically targeted at the most commonly identified composition problems. Staff
interviewed were often unaware ofthe style manual and other documents with related guidance, and
none had copies readily available.

In August 1998, the style manual and related guidance, including an update on producing tables, was
added to the Commission's Intranet. The ready availability should improve consistency and
conformance with Commission style guidance in document preparation.

Consistent style, particularly within a document, helps make a professional presentation. We believe
the best way to ensure consistency and conformance with Commission style guidance is to adopt
the prior recommendations in this report. Centralizing the formatting function and using templates
limits the number of employees who have to be familiar with style details. The Commission style
manual could possibly be eliminated or greatly reduced, or a style manual from another government
agency or business standard style manuals could be sufficient for the non-report documents.




                                                   13
                                                                                                I


                                                                      Attachment 1

      lJPDATED STATISTICS ON COMMISSION PUBLICATIONS



                              Program                PUB             Total
                               Office
           CY 1997                46                   24             70

          *YTD 1998               47                   25             72

             Total                93                   49             142




                                                 CY 1997                    *YTD 1998
                                         Program                     Program
                                          Office           PUB        Office          PUB
  Publication:                              WP       WP      INT       WP        WP     INT

 Title VII Investigations                   18        0          0     19         0         0
  Section 337 Investigations                7          0         0     3          0         0
  Section 332 Studies                       13        4          6     13         I         6
  Industry and Trade Summaries              2         3          1      I         9         0
  IERs                                       0        1          7      0         0         5
  ITTRs                                      4         0         0      4         0         0
  Miscellaneous**                            2         0         2      7         0         4
          Total Documents                   46         8     16        47         10    15

* YTD is January I to December 17,1998.

**In addition to documents listed on page three, includes a handbook on title VII provisions,
   guidelines for hearings, and a summary of statutes.
                                                                          Attachment 2

                    SECTION 332 REPORTS BY NUMBER OF PAGES


Pub.#          CY 1997 Report Title                                        Program    PUB
                                                                           Office

3045           The Impact of the North American Free Trade Agreement            621
               on the U.S. Economy and Industries: A Three-year
               Review

3050           Fresh and Processed Potatoes: Competitive Conditions                      356
               Affecting the U.S. and Canadian Industries

3051           Shifts in U.S. Merchandise Trade in 1996                                  337

3031           Advice Concerning the Proposed Modification of Duties            336
               of Certain Information Technology Products and Distilled
               Spirits

3053           General Agreement on Trade in Services: Examination of           285
               the Schedules of Commitments Submitted by Asia
               IPacific Trading Partners

3023           Advice on Providing Additional GSa Benefitsfor Least                      251
               Developed Countries
3024           Year in Trade, 1996 Annual Report                                         228

3048           Cattle and Beef: Impact of the NAFTA and Uruguay                 227
               Round Agreements on U.S. Trade

 3079          Advice Concerning Possible Modifications to the U.S.             207
               Generalized System of Preferences

 3067          US.-Africa Trade Flows and Effects ofthe Uruguay                          205
               Round Agreements and Us. Trade and Development
               Policy, Third Annual Report
 3056          Likely Impact of Providing Quota-Free and Duty-Free              191
               Entry to Textiles and Apparel from Sub-Saharan Africa

 3032          Publication Sharing: Use of us. Components and                            179
               Materials in Foreign Assembly Operations, 1992-1995
 3038          Annual Statistical Report on U.S. Import of Textiles and         162
               Apparel: 1996

 3041          Recent Trends in U.S. Services Trade 1997                        159

Note: Titles in italics were composed on Interleaf.
         The Dynamic Effects of Trade Liberalization: An                   147
3069     Empirical Analysis
3058     Caribbean Basin Economic Recovery Act: Twelfth                    138
         Report 1996 & Andean Trade Preference Act: Fourth
         Report 1996

3077     Publication Sharing: Use of U.S. Components and                   115
         Materials in Foreign Assembly Operations, 1993-1996

3064     Monitoring of U.S. Imports of Tomatoes                     48

3061     Monitoring of U.S. Imports of Peppers                      45

30 I )   Advice Concerning the Addition of Certain                          30
         Pharmaceutical Products and Chemical Intermediates to
         the Pharmaceutical Appendix to the Harmonized Tariff
         Schedule of the United States

3012     Advice on Providing Temporary-Duty Free Entry for          22
         Certain Suits and Suit-Type Jackets from Mexico

3030     Nonrubber Footwear Statistical Report, 1996                13

3028     The U.S. Automobile Industry Annual 1996 Report on         10
         Selected Economic Indicators



         Total                                                    2326    1986

         Average                                                 178.92   198.6
Pub.#       YTO 1998 Report Title                                       Program   PlJB
                                                                        Office

*3101       Economic Implications of Liberalizing APEC Tariff and           619
            Nontariff Barriers to Trade

3104        Advice concerning the Proposed Expansion of the                 336
            Information Technology Agreement: Phrase II

3097        Advice Concerning the Proposed Expansion of the                 231
            Information Technology Agreement: Phrase I

*3105       Recent Trade in U.S. Services Trade, 1998 Annual Report         210
3103        The Year in Trade, /997 Annual Report                                    206
3102        Annual Statistical Report on U.S. Imports of Textiles and       157
            Apparel: 1997

3110        Implications for u.s. Trade and Competitiveness ofa
            Broad-Based Consumption Tax                                                  55
 *3094      Nonrubber Footwear Statistical Report                            13


            Total                                                          1566      261
            Average                                                         261    130.5

* Assistance from   PUB on graphics and tables.
                                                                                     Appendix




      UNITED STATES IN~ERNATIONAL TRADE COMMISsrdN28

                                     WASHINGTON, DC 20436



December 3,1998                                                                             PUB-V-Ql



MEMORANDUM

TO:               Inspector General

THRU:             Director, Office of Administration ~

FROM:             Director, Office   OfPublishingtlj~
SUBJECf:          Response to Draft Report: Review of Commission Methods Used to Compose
                  Reports

This memorandum is the Office of Publishing's response to Draft Report: Review of Commission
Methods Used to Compose Reports. I have reviewed the draft audit report and while I am in general
agreement with the findings and recommendations of the audit report, I have several areas of
concerns.

Response to the draft audit report:

The areas of concern with the final draft of the IG audit include:

         I.       The statistics for reports other than 332 studies and other documents that do not go
                  through the composition process have been totaled with the statistics for those
                  reports that do go through the composition process. The scope of the audit is to
                  cover composition, not all reports and studies. The Office of Publishing believes
                  that combining the statistics gives a diminished view of the amount of
                  compositioD work the Office of Publishing is actually performing.

         2.       The draft audit report supports giving each individual program office maximum
                  flexibility to do whatever they want without any real format, standards, and
                  guidance. We support lIppointing an agency-wide liaison between the program
                  offices and the Office ofPublisbing to ensure a smooth transition of documents
                  through the entire publishing process. This liaison would also ensure that
                  documents that do not go through the Office of Publishing also conform to general
                  standards and guidelines. The Office of Publishing believes that a liaison, most
                  likely from the Office of Publishing, is essential Dot only for document
                  transitioD purposes, but for agency-wide training aDd software support
                  purposes, as well.
         3.       The section POLICY FOR PUBLICAnON PROCESS does not adequately detail
                  the history ofthe publishing process, including how the lack ofproofreaders has
                  intensified the problems of transforming draft, word-processed documents into a
                  final composed formal The Off"1Ce of Publisbing believes that historicaUy, the
                  lack of proofreaden is where the breakdown in "trust" began and should be
                  emphasized more in this report.

         4.       The Office of Publishing believes that overall there is too much emphasis put into
                  why the current Interleaf composition process has not worked for the Office of
                  Industries and not enough emphasis is put on why the current process has worked
                  so weD in other offices. The Office of Economics for example, has spent a lot of
                  time training its economists and support staff on the "do's and don't's" ofhow to
                  prepare documents for Inter1eaf composition. It has standardized on the Interleaf
                  process, therefore, there is no confusion on the part of the project teams as to how
                  the report wiD be published. This standardization has provided for a smooth and
                  efficient composition process between the Offices of Economic and Publishing.
                  Similar comments can also be made about the work composed in the Office of
                  Publishing for the Office ofExtemal Relations. The Office of Publishing would
                  like to see more emphasis put into detailing how the Interleaf process can be
                  successful in other offices, if those offices foUow the example of the Office of
                  Economics.

         5.       On page 6, paragraph I, the suggestion by the Office of Inspector General for the
                  Commission to discontinue in-house, professional-quality composition services and
                  use a contractor for documents requiring a more polished appearance, is not a viable
                  option. The Joint Committee on Printing's regulations defines composition as a part
                  of printing and all printing that is not achieved at the ITC must be contracted
                  through the Government Printing Office. The normal tum-around time for work
                  produced through GPO is 4-6 weeks. The ITC was approved to operate it's own
                  print shop several decades ago by the Joint Committee on Printing for reasons that .
                  are still viable today (i.e., statutory deadlines and compressed investigation
                  schedules). Without this approval, aU printing and professional composition work
                  would be required to be produced through GPO. Additionally, the work returned
                  from GPO would require proofreading and revisions identical to the in-house
                  process. Each draft thereafter would be assigned a 4-6 week turn around, although
                  revisions would more than likely be processed sooner. The Office of PubUshing
                  believes that there would be NO benefits to contracting professional
                  composition work through the Government Printing Office.

         6.       As stated in previous discussions with the Office oflnspector General, the Offices
                  of Administration and Publishing both believe that successful implementation of the
                  recommendations that wiD ultimately come from this report will depend on
                  enforcement While the Director, Office ofAdministration can set standards for
                  submission of work to the Office of Publishing, implementation and enforcement
                  must take place in the program offices. The Office of Publishing believes that the
                  Director, Office of Operations Ibould·demonstrably endone and oversee the
                  enforcement and bnplementation of any recommendations that affect his off"ace.


Over the past twelve years, the Office ofPublisbing has successfully demonstrated that its selection
and implementation of the centralized. in-house, composition program using the Interleaf system has


                                                  2
not only produced high-quality. professional results. but has been both cost and time efficient
Recurring costs of the system are mjnjmal and the current configuration continues to serve all of the
agency's publishing requirements. Additionally, using the cwrent system. the agency has never
missed a scheduled deadline because of fault or limitations of Publishing's resources.

Office of Publishing is not proposing that it compose all of the agency's reports and studies. The
Office of Publishing simply does nothave the resources to do that However, it is my opinion that the
Office of Publishing produce those reports that the agency anticipates will have significant interest to
our customers as determined by the program offices. Additionally, it is my opinion that the Office of
Publishing can be instrumental in assisting the program offices in producing documents that they
decide to compose within their own offices. The Office of Publishing assistance would include
creating standards and policy. including templates and sample documents, providing technical support
and assistance in applications software, and training program office staff in producing the work using
standard formats.

The Interleaf system is firmly integrated into both the enterprise and publishing networks and also
serves as a major front-end system for file conversions for the Internet I can not recommend that the
agency abandon a successful system in exchange for the freedom and flexibility that would be
afforded by decentralized composition. I strongly believe that using word processing software and
decentralizing composition, will generate losses in productivity and quality.

What I would like to see come for this audit is a constructive plan that will ensure that the agency
consistently produce documents of the highest quality, both in content and appearance, in a timely
manner, by professionals working optimally within their own areas of expertise.

Response to Recommendations of the Inspector General:

The IG recommends that the Director of Administration:

         l.       Draft a Commission policy that:

                  a.       Defmes general responsibilities of program offices to either compose
                           the fmal report or submit draft documents to OMS-PD for
                           composition in accordance with established procedures:

                  Response:                  Agree with clarification.

                  OPUB proposes:             Develop Commission policy on the method(s) to be used
                                             to compose documents.

                  b.       Adopts word-processing as the standard method for composing
                           Commission documents and identifies criteria for limited uceptions
                           which would be sent to contracton for professional composition; and

                  Response:                  Strongly Disagree

                  OPUB proposes:             Use Interleaf as the method to compose all 332 studies of
                                             significant interest that are released to the public and the
                                             rrc Annual Report; allow the use of WordPerfect for
                                             confidential reports, internal documents, the ITIR, staff
                                             papers and recurring statistical studies (i.e. footwear)

                                                  3
                  c.       UnkJ responsibUlty for posting reports on the Commission's web site
                           with the responsibility for report composition.

                  Response:                Agree. Give responsibility for posting files to the
                                           Internet to the Office of Publishing for those reports it .
                                           composes.

           2.     Phase out in-bouse use of the Interleaf system.

                  Response:                Strongly Disagree.

         3.       Establisb guidelines for processing reports that address standardized software,
                  and form and format of documents, timing, and feedback.

                  Response:                Agree with clarification. The Office of Publishing
                                           agrees that it should establish guidelines for fonn and
                                           format of documents, timing and feedback and the use of
                                           standardized software as adopted by the IRMSC.

         4.       Develop a training program on report preparation and composition for
                  program staff; and

                  Response:                Agree. The Office of Publishing would develop a
                                           training program on report preparation for program
                                           office staff that is maintained and administered by the
                                           Office ofPublishing.

         s.       Be proactive in providing input to program staff during tbe development of the
                  report and feedback on problems.

                  Response:                Agree.




Approve:          v/
      subject to the attached understanding
                                                    Disapprove:                  _




~~.~
  Chaim18D
L . Bragg,




ce:      The Commission
         Office of the General Counsel



                                                4
I am approving the Office of Publishing's response to the draft report, subject to the following:

I believe that the absence of formal Commission policy has contributed significantly to the
concerns identified in the Inspector General's report. Therefore, I believe that the decision on the
method for composing documents should be made as part of the directive process. This will
enable the Office of Administration -to draft and propose the policy it prefers, but will enable all
office directors, including the Inspector General, to comment, including the Commission. I expect
the Director, Office of Operations to work closely and actively in the development of this
directive and its approval, since, in my view, the involvement and commitment of program staff to
addressing these concerns is critical to resolving this management weakness.

It is my preference that this process be completed as soon as possible, and in advance of the usual
six-month deadline usually provided for closing out such recommendations. I would appreciate
appropriate status reports as well.

It is my understanding that the Inspector General would concur with this approach as reaching
management agreement.
